                           SOCIAL SECURITY
                           Office of the Inspector General

                                  September 28, 2010

The Honorable Sam Johnson
Ranking Member
Subcommittee on Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Johnson:

On September 7, 2010, you requested a response to the following three questions:

1. Are there feasible/cost-effective improvements the Social Security Administration
   (SSA) could make to its existing process to identify and prevent improper payments
   or fraud related to individuals who returned to work and who no longer meet the
   eligibility criteria for Disability Insurance and/or Supplemental Security Income?
2. Do you have any recommendations for legislative changes that could prevent or
   address these issues?
3. What reports have you issued on these topics in the past? Please summarize any
   recommendations you made, SSA’s response, and the status of those
   recommendations.

Thank you for the opportunity to provide the requested information. We are also
forwarding a copy of this report to the Agency and to Chairman Earl Pomeroy of the
Subcommittee on Social Security.

If you have any questions concerning this matter, please call me or have your staff
contact Misha Kelly, Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                              Sincerely,




                                              Patrick P. O’Carroll, Jr.
                                              Inspector General

Enclosure
cc:
Michael J. Astrue
Earl Pomeroy
             SOCIAL SECURITY ADMINISTRATION     BALTIMORE, MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT
The Social Security Administration’s
Process for Identifying and Preventing
Improper Payments to Individuals Who
            Return to Work
            A-01-11-21043




            September 2010
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                           Background
OBJECTIVE
The objective of our review was to answer three questions from the Subcommittee on
Social Security related to the Social Security Administration’s (SSA) process for
identifying and preventing improper disability benefit payments to individuals who return
to work.

BACKGROUND
SSA provides Disability Insurance (DI) and Supplemental Security Income (SSI)
disability benefits to eligible individuals under Titles II and XVI of the Social Security Act
(Act). 1 An adult is considered disabled under the Act if he or she is unable to engage in
any substantial gainful activity (SGA) by reason of a medically determinable physical or
mental impairment that can be expected to result in death or has lasted or can be
expected to last for a continuous period of at least 12 months.2

SSA defines SGA as work activity that involves significant physical or mental activities
performed for pay or profit. 3 The Agency has criteria for determining when services
performed (or earnings derived from services) demonstrate an individual's ability to
engage in SGA. 4 For example, for Calendar Year (CY) 2010, SSA generally considered
earnings above $1,000 per month to reflect SGA for non-blind individuals and
$1,640 per month for blind individuals. 5




1
    The Act §§ 223 et seq. and 1611 et seq., 42 U.S.C. §§ 423 et seq. and 1382 et seq.
2
 The Act §§ 216(i), 223(d)(1)(A), and 1614(a)(3)(A); 42 U.S.C. §§ 416(i), 423 (d)(1)(A), and
1382c(a)(3)(A). See also 20 C.F.R. §§ 404.1505 and 416.905. A child is considered to be disabled for
SSI purposes under the Act if he or she has a medically determinable physical or mental impairment,
which results in marked and severe functional limitations, and which can be expected to result in death or,
which has lasted, or can be expected to last, for a continuous period of not less than 12 months. The Act
§ 1614(a)(3)(C)(i), 42 U.S.C. § 1382c(a)(3)(C)(i). See also 20 C.F.R. § 416.906. The Act also provides a
separate definition of blindness for adults and children.
3
    20 C.F.R. §§ 404.1572 and 416.972.
4
    20 C.F.R. §§ 404.1573-404.1576. See also, SSA, POMS, DI 10500, et seq.
5
    SSA, POMS, DI 10501.015.


SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                              1
Under the DI program, a disabled beneficiary may work as long as it is not considered
SGA. 6 Under the SSI program, a disabled recipient may work as long as his or her
“countable earnings” are less than the income limit required for SSI payments. 7 SSA
generally only uses SGA as a factor of SSI eligibility when initially determining whether
someone is disabled.

Although disabled beneficiaries are required to report work activity, 8 they do not always
do so. Therefore, SSA uses its Continuing Disability Review Enforcement Operation to
compare earnings reported on its Master Earnings File (MEF) to the benefit rolls. 9 This
Enforcement Operation identifies potentially unevaluated substantial earnings that may
affect benefit entitlement and alerts SSA to review the earnings. SSA must perform a
work-related continuing disability review (CDR) when earnings indicate the beneficiary
has returned to work at the SGA level. 10

The Agency also receives information on potential work activity through computer data
matches with other Federal and state agencies. For example, SSA conducts a quarterly
automated data matching operation with the Quarterly Wage file and Unemployment
Compensation file in the Office of Child Support Enforcement’s National Directory of
New Hires (NDNH) data base to verify eligibility and/or payment amounts under the SSI
program and as an indicator for detecting work activity under the DI program.

Since establishing the DI and SSI programs, Congress has enacted many provisions to
provide disabled beneficiaries with incentives to return to work. The work incentives

6
  Disabled beneficiaries may work at SGA during a period of trial work and still receive benefits. Disabled
beneficiaries may also work at SGA—without receiving benefits for any month in which they perform
SGA—during a “reentitlement period” as long as they remain medically disabled. SSA also has a Benefit
Offset Demonstration Project underway to determine the effect of various interventions in combination
with a benefit offset on employment outcomes including wages, benefits, hours worked, and job retention.
The Agency anticipates that this strategy may reduce barriers to work and allow beneficiaries with
disabilities to increase their employment, earnings, and independence. The SSA OIG issued a report on
the contract for the demonstration project—Contract for the Benefit Offset National Demonstration Project
with Abt Associates, Incorporated (A-05-08-18041), March 2009.
7
 The income limit for SSI eligibility varies depending on the recipient’s circumstances.
The Act §§ 1611 et seq., 42 U.S.C. §§ 1382 et seq. See also SSA, POMS, DI 10505.020.
8
    20 C.F.R. §§ 404.1588 and 416.988
9
 The MEF is a repository of earnings information maintained by SSA. SSA receives earnings data
directly from employers on a yearly basis. For example, the four Federal payroll centers—which handle
all Federal employees’ payroll—report earnings to SSA each year. These four payroll centers are the
Department of Defense—Defense Financial and Accounting Service, General Services Administration—
National Payroll Branch, Department of the Interior—National Business Center, and Department of
Agriculture—National Finance Center. U.S. Office of Personnel Management, Human Resources Line of
Business Payroll Benchmarking Report, October 2009, page 7.
10
  20 C.F.R. §§ 404.1590(b)(5) and 416.990(b)(5). Because earnings posted to an individual’s earnings
record may include amounts that are not related to current work (for example, bonuses, termination pay,
or sick pay), SSA must evaluate the earnings to determine whether they represent earnings from SGA
performed after entitlement to disability benefits began.


SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                               2
apply under the DI program, SSI program, or both. SSA must consider all these work
incentives when conducting a work CDR before determining whether earnings are at the
SGA level or impact SSI eligibility. (See Appendix D for a list of work incentives and
Appendix E for a description of how work affects disability benefits.)

The Government Accountability Office’s Report and Congressional Request

In June 2010, the Government Accountability Office (GAO) issued a report on the Social
Security Administration: Cases of Federal Employees and Transportation Drivers and
Owners Who Fraudulently and/or Improperly Received SSA Disability Payments
(GAO-10-444). This report provided information on SSA benefits paid to Federal
employees, commercial drivers, and individuals registered with commercial vehicle
companies. In August 2010, Congress held a hearing related to the results of the GAO
review 11 and on September 7, 2010, the House Committee on Ways and Means,
Subcommittee on Social Security, requested a response to the following three
questions.

     1. Are there feasible, cost-effective improvements SSA could make to its existing
        process to identify and prevent improper payments or fraud related to individuals
        who returned to work and no longer meet the eligibility criteria for DI benefits
        and/or SSI payments?

     2. Do you have any recommendations for legislative changes that could prevent or
        address these issues?

     3. What reports have you issued on these topics in the past? Please summarize
        any recommendations you made, SSA’s response, and the status of those
        recommendations.

To perform this review, we obtained and reviewed information related to SSA’s
processes for identifying and preventing improper payments to disabled beneficiaries
who return to work. We also reviewed prior Office of the Inspector General (OIG)
reports related to this issue. (See Appendix B for additional information on our scope
and methodology.)




11
  Social Security Disability Fraud: Case Studies in Federal Employees and Commercial Driver's
Licenses, Hearing before the United States Senate Committee on Homeland Security and Government
Affairs, Subcommittee on Investigations, 111th Cong., August 4, 2010.


SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                       3
                                                         Results of Review
SSA has a number of projects underway or planned to improve the identification and
prevention of improper payments to disabled beneficiaries who return to work. Also, the
OIG has completed several reviews, and SSA continues to address recommendations
in this area. Answers to the Subcommittee’s three specific questions are below.

Question 1: Are there feasible, cost-effective improvements SSA
could make to its existing process to identify and prevent improper
payments or fraud related to individuals who returned to work and no
longer meet the eligibility criteria for DI benefits and/or SSI
payments?
Yes, there are improvements SSA could make—or is making—to identify and prevent
improper payments or fraud related to disabled beneficiaries who return to work and no
longer meet eligibility criteria. However, the Agency would need to devote additional
resources to effectively implement these improvements because reviewing work activity
and earnings is a complex process that requires staff to consider all the return to work
provisions in the Act.

The OIG’s work has shown that SSA identifies beneficiaries who return to work through
employer reports, computer matching with other Federal and State agencies, and other
Agency projects. However, SSA must balance service initiatives (such as processing
new claims) with stewardship responsibilities (such as conducting CDRs or
redeterminations). Therefore, the Agency has not reviewed work activity for all
beneficiaries and recipients who have earnings that may be substantial enough to
impact their benefit payments. For example, our April 2009 review found that about
$1.3 billion in improper payments went undetected to about 49,000 DI beneficiaries who
had work activity. 12

Also, in our July 2009 and March 2010 reports, we stated that SSA had a significant
backlog of CDRs and redeterminations—periodic reevaluations to determine whether
beneficiaries are still disabled or still meet the nonmedical factors of eligibility, such as
income or resources—because of resource limitations.13 For instance, although SSA
plans to conduct an increased number of medical CDRs in Fiscal Year (FY) 2011, the
1.5 million medical CDR backlog will most likely remain. We estimated in our
March 2010 report that SSA will pay between $556 million and $1.1 billion in CY 2011



12
   SSA OIG, Follow-up on Disabled Title II Beneficiaries with Earnings Reported on the Master Earnings
File (A-01-08-28075), April 2009.
13
 SSA OIG, Supplemental Security Income Redeterminations (A-07-09-29146), July 2009, and Full
Medical Continuing Disability Reviews (A-07-09-29147), March 2010.


SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                              4
that could have potentially been avoided had the medical CDRs in the backlog been
conducted when they became due. (See Appendix C for more information on prior OIG
reports.)

In a September 2010 draft report, we recommend SSA develop a computer matching
agreement with the Department of Labor (DOL) to identify possible DI and SSI
beneficiaries whose benefits do not reflect the Federal Employees’ Compensation Act
(FECA) compensation they received. 14 A matching agreement will allow SSA to
perform matching activities similar to what we performed and take appropriate action for
beneficiaries who have overpayments that result from SSA not taking into account
FECA compensation.

SSA Initiatives

CDRs and redeterminations are effective in reducing improper payments. SSA
estimates that every $1 spent on CDRs yields at least $10 in lifetime program savings
for Old-Age, Survivors and Disability Insurance, SSI, Medicare, and Medicaid and every
$1 spent on SSI redeterminations yields $8 in program savings, including savings
accruing to Medicaid. In FY 2011, SSA plans to conduct 360,000 medical CDRs and
2.4 million redeterminations.

In addition to CDRs and redeterminations, the Cooperative Disability Investigations
(CDI) program identifies and prevents improper payments to disabled beneficiaries.
The CDI program began in FY 1998; and the program’s mission is to obtain evidence of
material fact sufficient to resolve questions of fraud in SSA’s disability programs. There
are 22 CDI units operating in 19 States; and SSA and OIG continue to explore
expansion based on the availability of funding. For FY 2010 (latest data is for
October 1, 2009 through August 31, 2010), the CDI units confirmed 2,811 cases of
fraud or similar fault and achieved $221.6 million in savings for SSA’s disability
programs. 15

Under the SSI program, recipients’ (or their representative payees’) failure to report to
SSA increases or decreases in wages timely is one of the primary causes for both over-
and underpayment errors and has been a perennial problem since the SSI program’s
inception. 16 To address this, SSA has an SSI Automated Telephone Wage Reporting
14
  SSA OIG, Federal Employees Receiving Both Federal Employees’ Compensation Act and Disability
Insurance Payments (A-15-09-19008), draft issued September 2, 2010. SSA is currently drafting a
computer matching agreement for this purpose and has started discussions with DOL. In the agreement,
the Agency will ask DOL to disclose Federal employee compensation benefit data to SSA. The
disclosure will provide SSA with information necessary to verify the accuracy of payment eligibility factors
for the SSI and DI programs.
15
  Fraud is when a person makes a false or incomplete statement that is material to a determination.
Similar fault is when a person provides information that is incorrect or incomplete. Fraud generally
requires establishing an intent to defraud, whereas similar fault does not.
16
  SSA, Annual Report—Executive Order 13520, Reducing Improper Payments, May 18, 2010,
pages 7-8.


SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                                5
project that allows recipients to call a dedicated Agency telephone number to report
their wages via a voice recognition system. 17

SSA plans to establish an internet website for disability beneficiaries to report their
wages easily and promptly. Based on the results of electronic reporting through the SSI
telephone wage reporting process, the Agency expects these initiatives to reduce DI
overpayments resulting from late reporting of earnings.

SSA is improving the information it provides to the public about the reporting
responsibilities of beneficiaries and recipients. For example, the Agency is providing
additional information in its disability publications on when, where, and how to submit
work reports to SSA.

SSA convened a “Work CDR Workgroup” in January 2010 to identify and implement
improvements and adopted the following recommendations:

     •   Dedicated staff to target the oldest cases—initially, cases over 365 days old, then
         a gradual reduction of the age threshold;
     •   Prioritized earnings alerts by amount of earnings and worked cases with highest
         earnings to minimize overpayments;
     •   Improved communication between operational components; and
     •   Allocated additional staff resources to conduct work CDRs.

SSA is developing a statistical predictive model to identify beneficiaries who are at risk
of receiving high earnings-related overpayments and plans to begin testing this model in
the fall of 2010. The predictive model will prioritize the alerts based on a variety of case
characteristics, allowing the Agency to prioritize staff resources for enforcement
activities and reduce the number and amount of work-related overpayments.

SSA is developing a proposal to simplify the work policies in the DI program. This
proposal would reduce administrative complexity and workloads through program
simplification; enhance correlation of program rules between DI and SSI, making them
easier to explain and easier to understand; and encourage more DI beneficiaries to
return to work since they would not face permanent loss of benefits and Medicare.

Where possible, the Agency now uses The Work Number (TWN) to verify the wages of
individuals who report their earnings to SSA. 18 TWN provides free verification of wages
to social service organizations. SSA is the largest Federal user of this free service,
sending requests for wage verification for SSI recipients who have reported their
earnings to the Agency. This free service is an important tool in verifying the wages of

17
 SSA plans to extend the SSI telephone wage reporting system to DI beneficiaries and to investigate
methods for automating the posting of wages to DI records.
18
  TWN is an SSA-approved employment and wage verification company which maintains an up-to-date
database of the wages paid by about one-third of the nation’s employers.


SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                           6
individuals who have reported their earnings to SSA. It is not useful for discovering
wages when recipients have not reported returning to work because the free service
only verifies the wages for employers the Agency specifically requests.

In SSA’s May 2010 Annual Report to the OIG on Reducing Improper Payments, 19 the
Agency stated errors attributed to SGA accounted for nearly half of all Title II
overpayment error dollars between FYs 2004 and 2008. Of these improper payments,
78 percent resulted from beneficiaries’ failure to report work activity and 22 percent
were associated with the Agency’s failure to schedule a work CDR timely.

To address this “failure to report,” SSA is reviewing the cases of beneficiaries with
recent work activity to determine improvements in the work verification process. The
Agency will examine when work alerts are generated, who reviews them, how long staff
take to process them, and what the final results yield. Currently, many inconsequential
work alerts are generated that result in additional unproductive work for SSA
employees. Additionally, requests for work development are not initiated until an
Agency employee reviews the work history based on alerts produced by postings to the
MEF. SSA’s analysis will determine whether it is more efficient to automate work
development requests earlier in the process.

To address overpayments caused by failure to perform a work CDR, SSA plans to
develop and pilot ways to simplify the work CDR process and improve the operational
process of work reports and work reviews to reduce decision pending times. The
Agency has a work CDR workgroup to identify and implement improvements.

The Agency studied the feasibility of a quarterly match between the Office of Child
Support Enforcement’s NDNH and SSA’s MEF to identify work activity by DI
beneficiaries. SSA’s Office of Quality Performance did not recommend implementing
this match because a large number of additional alerts would be generated, and the
expected return on investment would be low. 20

Also, with the passage of Executive Order 13520 on November 20, 2009 and the
signing of the Improper Payments Elimination and Recovery Act of 2010 on
July 22, 2010, there is a greater emphasis on addressing improper payments.21 The
July 2010 law enables Agencies—such as SSA—to use not more than 25 percent of
certain overpayments collected through recovery audits to address improper


19
     SSA, Annual Report—Executive Order 13520, Reducing Improper Payments, May 18, 2010.
20
  SSA, Office of Quality Performance, Cost Benefit Analysis for a Pilot Computer Match between the
Office of Child Support Enforcement Quarterly Wage File and the DI Master Beneficiary Record,
July 2010. However, a few field offices in one SSA region have reported using the quarterly earnings
data to manually identify claims with a high likelihood of overpayments due to earnings and to initiate
work CDRs earlier than through SSA’s normal business process.
21
  The Improper Payments Elimination and Recovery Act of 2010, Pub. L. No. 111-204, July 22, 2010,
124 Stat. 2224.


SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                               7
payments. 22 Additionally, OIGs may use not more than 5 percent of certain
overpayments collected through recovery audits. 23 Office of Management and Budget
(OMB) guidance on this law has not been issued, and we are waiting for clarification on
whether the recovery audit provisions apply to overpayments recovered from
beneficiaries or only to certain overpayments, such as those recovered from
contractors. We initiated discussions with SSA on August 12, 2010, and the Agency
has contacted OMB and obtained an opinion from its Office of the General Counsel.

Even if SSA received earnings data—such as Federal payroll information—more
frequently, Agency staff still needs to review the earnings. Similarly, data on individuals
with commercial driver’s licenses or commercial vehicle ownership would require staff
review. 24 SSA cannot simply stop benefit payments because it is notified that a
beneficiary is working. For instance, because earnings reported to SSA may include
amounts that are not related to current work—such as bonuses, termination pay, and
sick pay—SSA must evaluate the earnings to determine whether they represent
earnings from SGA performed after entitlement to disability benefits began, or whether
the earnings exceeded the “countable earnings” threshold. SSA must also assess trial
work and other work incentive provisions. This review (that is, a work CDR or SSI
redetermination) is a labor-intensive process, and the staff resources to do it compete
against the Agency’s need to complete other priority workloads.

Question 2: Do you have any recommendations for legislative
changes that could prevent or address these issues?
Although reforms to simplify SSA’s programs are undoubtedly difficult to implement, we
believe reducing the complexity of these programs, without sacrificing their intent, would
help reduce millions of dollars in improper payments that occur each year. For
example, since SSA has to evaluate earnings and work incentives before stopping
benefits when someone works—and cannot simply stop paying benefits because wages
are reported—simplifying these provisions could have a positive impact.

The President’s FY 2011 Budget submission for SSA contains a proposal to change the
Federal wage reporting process from annual to quarterly reporting. A change of this
nature would increase the frequency that employers report wages to SSA, improving the
timeliness of the work CDR process. Currently, work alerts are not generated until the
year following the earnings posting to the MEF. This change would permit many alerts
to be generated and processed in the same year as the work is performed, provided the
Agency has the resources to process the work—thereby reducing the number of
overpayments made that result when beneficiaries fail to report their work activity timely.


22
     Id. §§ (2)(h)(3)(B) and (C).
23
     Id. § (2)(h)(3)(D).
24
   In response to GAO’s report, SSA questioned the value of using these data to evaluate continuing
eligibility for disability when the data do not have specific income records associated with them.


SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                           8
We encourage SSA to continue supporting legislative proposals to improve the
identification and prevention of improper payments in its programs. Also, we believe
future consideration should be given to seeking congressional support to simplify the
Agency’s programs.

Additionally, the OIG community is pursuing an exemption to the Computer Matching
and Privacy Protection Act of 1988 (5 U.S.C. 552a(o)). Specifically, on July 22, 2010
the Chairman and Ranking Member of the United States House of Representatives
Committee on Oversight and Government Reform introduced H.R. 5815, The Inspector
General Authority Improvement Act of 2010. 25 This bill includes language that would
exempt OIGs from certain restrictions in the Privacy Act that forbid the use of computer
matching programs to compare Federal records against other Federal and non-Federal
records. 26 The OIG community has taken the position that these computer matching
restrictions weaken OIG efforts to detect improper payments and identify weaknesses
that make Federal programs vulnerable to fraud, waste, and abuse. H.R. 5815 narrowly
tailors its computer matching exemption to audits, inspections, or investigations
designed to identify weaknesses that make a program vulnerable to fraud, waste, or
abuse and to detect improper payments and fraud.

This year, Congress enacted a law excluding the Department of Health and Human
Services (HHS) and HHS OIG from complying with certain aspects of the Computer
Matching and Privacy Protection Act provisions if the computer match activity is to
identify potential fraud, waste, and abuse. 27 However, neither SSA nor SSA OIG has a
similar exclusion.

Question 3: What reports have you issued on these topics in the
past? Please summarize any recommendations you made, SSA’s
response, and the status of those recommendations
In recent years, the OIG has issued seven reports related to improper payments to
disabled beneficiaries or recipients who return to work. In general, the
recommendations centered on SSA’s need to perform more work CDRs, medical CDRs,
and SSI redeterminations. Also, SSA should continue to pursue legislation for a self-
funding integrity fund to finance this activity. 28 The reports are listed below and more
details—including the recommendations from the reports, SSA’s response, and the
status of those recommendations—are included in Appendix C.


25      th
     111 Cong. 2010.
26
     The Inspector General Authority Improvement Act of 2010, §4.
27
 The Patient Protection and Affordable Care Act, Pub. L. No. 111-148, § 6402(b)(2), 124 Stat. 119, 756,
March 23, 2010. Codified at 5 U.S.C. 552a(a)(8)(B)(ix).
28
   See SSA OIG, Opportunities and Challenges for the SSA (A-08-09-29152), April 2009, page 14, for
information on integrity fund proposal.


SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                           9
   1. Disabled Title II Beneficiaries with Earnings Reported on the Master Earnings
      File (A-01-03-13019), July 2004.
   2. Disabled Supplemental Security Income Recipients with Earnings
      (A-01-04-14085), April 2005.
   3. Social Security Administration Employees Receiving Benefits (A-01-07-27116),
      December 2007.
   4. Unprocessed Manual Recalculations for Title II Payments (A-03-07-17090),
      August 2008.
   5. Follow-up on Disabled Title II Beneficiaries with Earnings Reported on the Master
      Earnings File (A-01-08-28075), April 2009.
   6. Supplemental Security Income Redeterminations (A-07-09-29146), July 2009.
   7. Full Medical Continuing Disability Reviews (A-07-09-29147), March 2010.




SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)           10
                                                                     Conclusion
SSA has a number of projects underway or planned to improve the identification and
prevention of improper payments to disabled beneficiaries who return to work. Also, the
OIG has completed several reviews and SSA continues to address recommendations in
this area.




SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)          11
                                            Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Prior Office of the Inspector General Reports
APPENDIX D – Work Incentives
APPENDIX E – How Work Affects Disability Benefits




SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)
                                                                              Appendix A

Acronyms
    Act                 Social Security Act
    AERO                Automatic Earnings Reappraisal Operations
    AFI                 Access to Financial Institutions
    AWIC                Area Work Incentive Coordinators
    CDI                 Cooperative Disability Investigations
    CDR                 Continuing Disability Review
    CDREO               Continuing Disability Review Enforcement Operation
    C.F.R.              Code of Federal Regulations
    CY                  Calendar Year
    DCF                 Disability Control File
    DI                  Disability Insurance
    DOL                 Department of Labor
    FECA                Federal Employees’ Compensation Act
    FO                  Field Office
    FY                  Fiscal Year
    GAO                 Government Accountability Office
    MEF                 Master Earning File
    MSSICS              Modernized Supplemental Security Income Claims System
    NDNH                National Directory of New Hires
    OASDI               Old-Age, Survivors and Disability Insurance
    OI                  Office of Investigations
    OIG                 Office of the Inspector General
    OMB                 Office of Management and Budget
    POMS                Program Operations Manual System
    Pub. L. No.         Public Law Number
    RZ                  Redetermination
    SGA                 Substantial Gainful Activity
    SSA                 Social Security Administration
    SSI                 Supplemental Security Income
    SSR                 Supplemental Security Record
    TWN                 The Work Number
    U.S.C.              United States Code



SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)
                                                                              Appendix B

Scope and Methodology
To achieve our objective, we:

    •   Reviewed the Social Security Act and the Social Security Administration’s (SSA)
        regulations, rules, policies, and procedures on disability case processing.

    •   Obtained information on Federal employee payroll data.

    •   Researched improvements SSA is making to prevent improper payments to
        disabled beneficiaries who return to work.

    •   Contacted SSA officials and staff to gather information regarding legislative
        changes SSA has proposed/is considering, related to identifying and/or
        preventing improper payments or fraud related to individuals who returned to
        work and no longer meet eligibility criteria for Disability Insurance benefits
        and/or Supplemental Security Income payments.

    •   Reviewed prior SSA Office of the Inspector General reports related to disabled
        beneficiaries returning to work and summarized the recommendations, SSA's
        response, and the status of the recommendations.

We conducted our review during September 2010 in Boston, Massachusetts. The
principal entity audited was the Office of Public Service and Operations Support under
the Office of the Deputy Commissioner for Operations. We conducted our review in
accordance with the Council of the Inspectors General on Integrity and Efficiency’s
Quality Standards for Inspections.




SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)
                                                                                                                   Appendix C

Prior Office of the Inspector General Reports
Below is a summary of recent reports we have issued related to identifying and preventing improper payments or fraud to
individuals who returned to work and who no longer meet the eligibility criteria for Disability Insurance benefits and/or
Supplemental Security Income (SSI) payments.

Disabled Title II Beneficiaries with Earnings Reported on the Master Earnings File (A-01-03-13019) July 2004
Findings                We found that a substantial portion of the earnings were not evaluated by the Agency. We estimate that
                        (a) $1.37 billion in overpayments resulting from about 63,000 disabled beneficiaries' work activity was not
                        identified; (b) 39,100 disabled beneficiaries (of the estimated 63,000 beneficiaries) were no longer entitled to
                        benefits because of their substantial work; and (c) the Social Security Administration (SSA) had not identified
                        about 34,760 disabled beneficiaries who engaged in trial work.
Recommendations         SSA’s Comments to Recommendation                    Status of Recommendation
SSA should review       SSA agreed, where it is cost beneficial to do       Due to the sheer volume of work involved, SSA decided it
past cases where        so and as resources permit, to review the           would not be a prudent use of its limited resources. SSA
significant earnings    cases with significant earnings on the MEF          considers this recommendation closed.
are present on the      where no determination has been made
Master Earnings File    regarding trial work/SGA and take action.
(MEF) and no
determination has
been made regarding
trial work and/or
substantial gainful
activity (SGA).




SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                                                          C-1
Disabled Title II Beneficiaries with Earnings Reported on the Master Earnings File (A-01-03-13019) July 2004
Findings                We found that a substantial portion of the earnings were not evaluated by the Agency. We estimate that
                        (a) $1.37 billion in overpayments resulting from about 63,000 disabled beneficiaries' work activity was not
                        identified; (b) 39,100 disabled beneficiaries (of the estimated 63,000 beneficiaries) were no longer entitled to
                        benefits because of their substantial work; and (c) the Social Security Administration (SSA) had not identified
                        about 34,760 disabled beneficiaries who engaged in trial work.
Recommendations         SSA’s Comments to Recommendation                    Status of Recommendation
SSA should ensure       SSA agreed. SSA agreed to track earnings            SSA will continue to make process improvements and
that future earnings    enforcement through the use of its automated establish rigorous controls to ensure that every time a W-2
enforcements are        system, the Continuing Disability Review            (or Schedule SE), which indicates the disabled beneficiary
adequately controlled Enforcement Operation (CDREO), which                  may have returned to work, is reported to the MEF that the
by management and       uses the MEF and specific criteria to identify      Agency either evaluates those earnings timely or follows up
resolved timely.        beneficiaries who have worked and whose             with the appropriate component to ensure that evaluation is
                        work activity appears to warrant further            completed. The Agency’s automated system, the CDREO,
                        review.                                             uses the MEF and specific criteria to identify disabled
                                                                            beneficiaries whose work activity needs further review. The
                        The Agency initiated steps to improve and           CDREO system has been integrated with the Disability
                        accelerate the process of wage reporting for        Control File (DCF) which controls the earnings enforcement
                        individuals who returned to work. Changes           issues that the CDREO system generates. SSA
                        have been made within SSA’s Regional                implemented a comprehensive matching interface, to
                        Offices to establish a corps of fully trained       provide verification of earnings for both Title II and XVI
                        Area Work Incentive Coordinators (AWIC)             beneficiaries. Finally, fully trained AWICs have a primary
                        nationwide. The AWIC’s primary                      responsibility of monitoring area work incentive workloads
                        responsibility involves the monitoring of area      and activities, thus assisting in ensuring that earnings
                        work incentive workloads and activities. The        enforcements will be properly managed and resolved timely.
                        roll-out of eWork, which provides a                 SSA considers this recommendation closed.
                        centralized location that will use evidence of
                        work activity to schedule and process work-
                        related continuing disability reviews (CDR).




SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                                                         C-2
Disabled Title II Beneficiaries with Earnings Reported on the Master Earnings File (A-01-03-13019) July 2004
Findings                We found that a substantial portion of the earnings were not evaluated by the Agency. We estimate that
                        (a) $1.37 billion in overpayments resulting from about 63,000 disabled beneficiaries' work activity was not
                        identified; (b) 39,100 disabled beneficiaries (of the estimated 63,000 beneficiaries) were no longer entitled to
                        benefits because of their substantial work; and (c) the Social Security Administration (SSA) had not identified
                        about 34,760 disabled beneficiaries who engaged in trial work.
Recommendations         SSA’s Comments to Recommendation                    Status of Recommendation
SSA should ensure       SSA agreed. SSA agreed to provide                   SSA provided employment support training to all direct
that earnings           employment support training to all direct           service employees in the fall of 2003. Also, the DCF has the
reported on the MEF     service employees that will, with the aid of the ability to control both a pending work issue and a pending
or disclosed on         automation effort discussed above, help             medical issue at the same time. eWork has also been
beneficiary-            ensure that all reported earnings are               developed as a way to control and process disability work
completed forms are     evaluated. The DCF has the ability to control activity and work CDRs. The recommendation is considered
evaluated when          both a pending work issue and a pending             closed.
medical CDRs are        medical issue at the same time. Prior to
performed or mailer     November 2002, SSA could only control one
CDR forms are           issue at a time.
received.
SSA should ensure       SSA agreed. By enhancing its ability to             By enhancing the ability to control and timely resolve
that earnings           control and timely resolve earnings                 earnings enforcements, SSA will be able to ensure that
resulting in benefit    enforcements, the Agency will also be able to earnings resulting in benefit increases are evaluated. All
increases are           ensure that earnings resulting in benefit           earnings which would be indicative of a return to work and
evaluated to            increases are evaluated. All earnings that          that would result in a benefit increase will trigger controlled
determine whether       would be indicative of a return to work and         earnings enforcement actions. The recommendation is
trial work activity     that would result in a benefit increase will        considered closed.
and/or SGA were         trigger controlled earnings enforcement
performed.              actions.




SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                                                            C-3
Disabled Supplemental Security Income Recipients with Earnings (A-01-04-14085) April 2005
Findings               We identified some overpayments that were previously undetected because not all the recipients’ earnings
                       were considered in the SSI payment calculations. We estimated that approximately $12.4 million was
                       overpaid to about 11,880 recipients because SSA did not previously consider all their earnings when
                       calculating SSI payment amounts.
Recommendations        SSA’s Comments to Recommendation                  Status of Recommendation
SSA should ensure      SSA agreed. Payments are more accurate            In March 2005, SSA published an Administrative Message
that earnings-related  when earnings discrepancies are identified        which reminded FO employees to take all appropriate
diaries resulting from and resolved within the time frames afforded      actions to control and properly post earnings to the
computer matches       by the Agency’s administrative finality           Supplemental Security Record (SSR). The recommendation
are adequately         regulations. Adequate controls are provided       is considered closed.
controlled by          to the regional offices, area offices, and field
management and         offices (FO) through the instructions given
resolved timely.       them regarding the number and time frame
                       for clearance of SSI redetermination and
                       limited issue cases. Additionally, the
                       Modernized Supplemental Security Initial
                       Claims System (MSSICS) enhancements
                       provide further management controls by now
                       precluding redetermination clearances unless
                       the active computer match diaries are
                       properly addressed. Through the use of
                       management monitoring tools, management
                       has the ability to accurately track the
                       clearance of redetermination and limited
                       issue cases. By April 1, 2005, SSA planned
                       to issue a reminder to FO managers to keep
                       tight control of earnings-related diaries so that
                       they are resolved in a timely manner.




SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                                                C-4
Disabled Supplemental Security Income Recipients with Earnings (A-01-04-14085) April 2005
Findings              We identified some overpayments that were previously undetected because not all the recipients’ earnings
                      were considered in the SSI payment calculations. We estimated that approximately $12.4 million was
                      overpaid to about 11,880 recipients because SSA did not previously consider all their earnings when
                      calculating SSI payment amounts.
Recommendations       SSA’s Comments to Recommendation                Status of Recommendation
SSA should remind     SSA agreed. Use of RZwiz is mandatory.          According to SSA, the Agency has taken the necessary
FO employees to:      RZwiz was implemented to improve detection steps to address these issues. Since March 27, 2002, the
(a) review earnings   of wages, the single greatest cause of SSI      Agency has required the use of the RZwiz application, a
recorded on the MEF   payment   error. RZwiz  improves  the RZ        computer program designed to provide interview assistance
whenever              [redetermination] interview (the most error     for SSI redetermination or limited issue cases. It is not
redeterminations and prone stage of the process) by providing staff intended to replace the SSR, but instead highlights error-
limited issue reviews with an easy-to-use tool that automatically     prone areas, such as earned income for the eligible
are performed,        retrieves, consolidates, and interprets queries individual, eligible spouse, and deemors (parents and/or
(b) review and        used during the redetermination interview.      spouses of disabled children and adults whose income is
resolve any                                                           used to determine the disabled individual's or child's SSI
discrepancies that                                                    payment amount). This recommendation is considered
exist between the                                                     closed.
MEF and the SSR,
and (c) transmit
earnings data to the
SSR when recorded
in MSSICS.




SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                                                  C-5
SSA Employees Receiving Benefits (A-01-07-27116) December 2007
Findings             Overall, SSA ensured that employees who are also entitled to Old-Age, Survivors and Disability Insurance
                     (OASDI) or SSI are paid the appropriate benefits. However, we identified 8 employees (out of 194 who
                     received benefits) who were overpaid $245,311 in OASDI benefits because of their earnings. By stopping
                     these benefits, the Agency will save $124,176 over the next 12 months. We referred these eight employees
                     to our Office of Investigations (OI) for criminal investigation. As of November 2007, three of these eight
                     cases were with the United States (U.S.) Attorney’s Office or the District Attorney’s Office for prosecution due
                     to possible fraud. For another three cases, the U.S. Attorney’s Office declined to prosecute the cases and
                     they were being handled by SSA administratively. Also, in the remaining two cases, SSA was taking
                     administrative action.
Recommendations      SSA’s Comments to Recommendation                     Status of Recommendation
None. SSA took       As the report indicates, SSA generally paid          Not applicable; SSA took corrective action during the audit.
corrective action on OASDI benefits correctly to its employees
the cases during the who were entitled to them, but improperly
review.              paid benefits to eight employees identified in
                     the OIG’s review. SSA has taken the
                     necessary corrective actions and will continue
                     with its efforts to detect and prevent
                     fraudulent and improper payments.




SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                                                       C-6
Unprocessed Manual Recalculations for Title II Payments (A-03-07-17090) August 2008
Findings             We estimated that SSA did not adjust Title II benefits or assess over/underpayments when earnings were
                     removed from 5,440 beneficiaries' earnings records—resulting in about $5 million in improper payments.
                     The Agency was not aware of the need to review the benefit amounts for approximately 5,020 of these
                     beneficiaries. Also, we estimated about 4,660 of these beneficiaries will be paid an additional $1.2 million
                     annually because their ongoing benefits were not corrected when SSA removed the earnings.
Recommendations      SSA’s Comments to Recommendation                 Status of Recommendation
SSA should review    SSA agreed. By January 1, 2009, the Agency According to SSA, the Agency reviewed the 944 cases and
the remaining        planned to complete its review of the            adjusted benefits when warranted. This recommendation is
944 cases (from the  remaining 944 cases to ensure the                considered closed.
1,077 we identified) adjustment to benefits were appropriately
to ensure benefits   completed.
have been adjusted
appropriately.



SSA should ensure        SSA agreed. The Agency utilized the records    According to SSA, the Agency completed the AERO run
the Automatic            from the audit to try to duplicate the cited   (with the software enhancements) on March 26, 2009. This
Earnings Reappraisal     problems. Its investigation included           recommendation is considered closed.
Operation (AERO)         interaction with personnel from the General
identifies all cases     Utility Earnings Summarization Tool area,
that meet the criteria   which provides the earnings to the AERO
for manual review        process. SSA was unable to identify any
when earnings are        software errors in the AERO process.
removed from             However, the Agency planned to attempt to
individuals’ earnings    replicate the problem scenario during the
records.                 AERO validation cycle in October 2008. If
                         any software errors were identified, SSA
                         planned to evaluate the proper solution and
                         make the necessary changes/enhancements
                         depending on available resources.




SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                                                   C-7
Unprocessed Manual Recalculations for Title II Payments (A-03-07-17090) August 2008
Findings                We estimated that SSA did not adjust Title II benefits or assess over/underpayments when earnings were
                        removed from 5,440 beneficiaries' earnings records—resulting in about $5 million in improper payments.
                        The Agency was not aware of the need to review the benefit amounts for approximately 5,020 of these
                        beneficiaries. Also, we estimated about 4,660 of these beneficiaries will be paid an additional $1.2 million
                        annually because their ongoing benefits were not corrected when SSA removed the earnings.
Recommendations         SSA’s Comments to Recommendation                  Status of Recommendation
SSA should develop      SSA agreed. However, the Agency planned           SSA staff from the Office of Retirement and Survivors
a cost effective        to pursue this recommendation in accordance Insurance Systems, Office of Quality Performance, Office of
method for prioritizing with, but not at the expense of, working the      Automation Support, Office of Income Security Programs,
the review of AERO      oldest pending cases first. AERO alerts that      Office of General Counsel, and the processing centers met
alerts, ensuring that   result in overpayments are in the backlog         and were unable to develop a cost-effective method for
alerts most likely to   because they do not meet the criteria for         prioritizing the review of AERO alerts to ensure that the
result in               quick completion during the screening             alerts most likely to result in overpayments are worked first.
overpayments are        operation. The payment centers already have This recommendation is considered closed.
worked first.           many priority workloads. SSA believed that
                        prioritizing the review of AERO alerts would
                        likely create delays in other priority workloads.
                        Therefore, the Agency planned to evaluate its
                        policy, resources, and systems capabilities to
                        determine the feasibility of implementing a
                        cost-effective method of ensuring that SSA
                        processed the AERO alerts most likely to
                        result in overpayments before other similarly
                        aged AERO alerts that are not likely to result
                        in overpayments.




SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                                                         C-8
Follow-up on Disabled Title II Beneficiaries with Earning Reported on the Master Earnings File (A-01-08-28075) April 2009
Findings             We estimate about $1.3 billion in overpayments to approximately 49,000 beneficiaries went undetected by
                     SSA. Furthermore, we estimate about 24,000 of the 49,000 beneficiaries were no longer entitled to disability
                     benefits because of work activity.
Recommendations      SSA’s Comments to Recommendation               Status of Recommendation
SSA should develop   SSA agreed. With the resources provided by According to SSA, a workgroup convened in January 2010.
and implement a plan the Recovery Act and the Fiscal Year 2009      Improvements were made as follows.
to allocate more     appropriations, field offices will be able to      • Thousands of extraneous items were deleted from
resources to timely  reduce the pending levels of workloads,               the work CDR Management Information data source.
perform work-related including work CDRs.                               • Establishment of an Agency report to track work
CDRs—and assess                                                            CDRs—currently being validated.
overpayments                                                            • Strike teams were formed to streamline work CDR
resulting from work                                                        processing and reduce the pending aged cases; and
activity—for cases                                                         quarterly reports are made to track progress.
identified by the                                                       • An overpayment report specific to work CDRs is
Agency’s earnings                                                          being considered.
enforcement process.                                                    • Enforcement cases are now prioritized and
                                                                           processed by highest earnings.
                                                                    This recommendation is still open.




SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                                                   C-9
Supplemental Security Income Redeterminations (A-07-09-29146) July 2009
Findings               The number of SSI redeterminations conducted by SSA substantially decreased although the number of SSI
                       recipients has increased. Between FYs 2003 and 2008, redeterminations decreased by more than
                       60 percent. According to SSA, it was not able to conduct as many redeterminations as needed because of
                       budget limitations and increases in SSA’s core workloads. We estimate SSA could have saved an additional
                       $3.3 billion during FYs 2008 and 2009 by conducting redeterminations at the same level it did in FY 2003.
Recommendations        SSA’s Comments to Recommendation                Status of Recommendation
SSA should establish SSA agreed. The Agency planned to develop This recommendation is still open.
a methodology to       such a methodology and, when necessary,
identify the number of report on lost savings.
redeterminations that
are needed each
year. To the extent
the annual number of
necessary
redeterminations is
not completed,
identify the lost
savings and
document the
reasons the number
of needed
redeterminations was
not completed.
SSA should establish    SSA agreed. The Agency planned to develop       This recommendation is still open.
a methodology to        a cost-savings ratio methodology.
identify the cost-
savings ratio for
redeterminations
conducted each year.




SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                                                 C-10
Supplemental Security Income Redeterminations (A-07-09-29146) July 2009
Findings             The number of SSI redeterminations conducted by SSA substantially decreased although the number of SSI
                     recipients has increased. Between FYs 2003 and 2008, redeterminations decreased by more than
                     60 percent. According to SSA, it was not able to conduct as many redeterminations as needed because of
                     budget limitations and increases in SSA’s core workloads. We estimate SSA could have saved an additional
                     $3.3 billion during FYs 2008 and 2009 by conducting redeterminations at the same level it did in FY 2003.
Recommendations      SSA’s Comments to Recommendation                Status of Recommendation
SSA should continue SSA agreed. The Agency continues to              The Improper Payments Elimination and Recovery Act
to pursue the        support innovative ways to fund program         which was enacted on July 22, 2010, included provisions for
establishment of a   integrity work.                                 funding additional improper payment reduction activities
self-funding program                                                 from the results of recovery audits. Office of Management
integrity fund.                                                      and Budget (OMB) guidance on this law has not been
                                                                     issued, and we are waiting for clarification on whether the
                                                                     recovery audit provisions apply to overpayments recovered
                                                                     from beneficiaries or only to certain overpayments, such as
                                                                     those recovered from contractors.

                                                                        SSA indicated that the Agency supports innovative ways to
                                                                        fund program integrity work. SSA considers this
                                                                        recommendation closed.




SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                                                   C-11
Full Medical Continuing Disability Reviews (A-07-09-29147) March 2010
Findings                 According to SSA, resource limitations and increases in its core workloads prevented it from conducting
                         full medical CDRs when they became due. As a result, SSA estimated a backlog of over 1.5 million full
                         medical CDRs would exist at the end of FY 2010. SSA has made, and will continue to make, benefit
                         payments to individuals who would no longer be eligible if the backlog of 1.5 million full medical CDRs
                         had been conducted when they became due.

                            From Calendar Year (CY) 2005 through CY 2010, we estimate SSA will have made benefit payments of
                            between $1.3 and $2.6 billion that could have potentially been avoided if the full medical CDRs in the
                            backlog had been conducted when they became due.

                            Although SSA plans to conduct an increased number of full medical CDRs in FY 2011, the 1.5 million full
                            medical CDR backlog will most likely remain. Therefore, we estimate SSA will pay between $556 million
                            and $1.1 billion during CY 2011 that could have potentially been avoided if the full medical CDRs in the
                            backlog had been conducted when they became due.
Recommendations             SSA’s Comments to Recommendation Status of Recommendation
SSA should continue to      SSA disagreed with the second part of        This recommendation is considered closed.
work with Congress to       this recommendation. Processing more
secure the funds            full medical CDRs is not a simple
necessary to eliminate      resource issue that can be isolated in a
the existing full medical   report separate from the rest of the
CDR backlog and to          Agency’s annual budget request. To
conduct the CDRs that       process more full medical CDRs, SSA
become due each year.       stated it must have sufficient resources to
To the extent resources     increase its overall capacity to do more
are not available to        program integrity reviews while handling
conduct the CDRs that       the growing initial claims workloads.
become due each year,       Moreover, the amount of time it takes to
SSA should report the       prepare the annual report to Congress
reasons and the             undermines the usefulness of including
associated impact on        this type of information in the annual
Federal benefit payments    report.
in its annual CDR Report
to Congress.




SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                                                    C-12
                                                                                  Appendix D

Work Incentives
Under the Disability Insurance (DI) program, a disabled beneficiary generally may work
as long as it is not considered substantial gainful activity (SGA). SGA means the
performance of significant physical or mental activities in work for pay or profit, or in
work of a type generally performed for pay or profit. 1 Under the Supplemental Security
Income (SSI) program, a disability recipient may also work as long as his or her
“countable earnings” are less than the income limit required for SSI payments. 2 The
Social Security Administration (SSA) generally only uses SGA as a factor of SSI
eligibility when initially determining whether someone is disabled.

Since establishing these programs, Congress has enacted many provisions to provide
disabled beneficiaries with incentives to return to work, and SSA has included some
additional incentives. These work incentives apply under the DI program, SSI program,
or both.

DI Work Incentives

•     Trial Work Period: Beneficiaries may work for 9 months within a 60-month rolling
      period without suffering a loss of benefits. As of 2010, a trial work month is any
      month in which earnings are above $720. 3

•     Reentitlement Period (Extended Period of Eligibility): This 36-month period
      follows the end of the trial work period. During this time, a beneficiary may receive a
      benefit for any month in which earnings fall below the SGA limit—as long as he or
      she continues to have a disabling impairment. 4

•     Extended Medicare Coverage: Medicare is a Federal program that provides
      premium-free hospital insurance and supplemental medical insurance for any
      disabled individual who is eligible for DI benefits (in most cases, after a 24-month
      waiting period). With the passage of the Extended Medicare Coverage provision,



1
   20 C.F.R. §§ 404.1572 and 416.972. See also SSA, POMS, DI 10501.001. As of 2010, "countable
earnings" of employees indicate SGA and "countable income" of self-employed individuals is "substantial"
if the amount averages more than $1,000 per month for non-blind individuals or $1,640 for blind
individuals. SSA, POMS, DI 10501.015 B and C.
2
 The income limit for SSI eligibility varies depending on the recipient’s circumstances. The Social
Security Act (Act) §§ 1611 et seq., 42 U.S.C. §§ 1382 et seq. See also SSA, POMS, DI 10505.020.
3
    The Act § 222(c), 42 U.S.C. § 422(c). See also SSA, POMS, DI 13010.060.
4
    The Act § 223(e), 42 U.S.C. § 423(e). See also 20 C.F.R. § 404.1592a.


SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                           D-1
      when a person’s DI benefits cease due to SGA, his or her Medicare coverage may
      continue for at least 93 more months (or about 8 years). 5

•     Protection from Medical Continuing Disability Reviews (CDR): If an individual
      has been eligible for disability benefits for 2 years, SSA will not conduct a medical
      CDR for a beneficiary solely because the individual returns to work. 6

•     No Waiting Period: If a beneficiary stops receiving disability benefits because of
      medical recovery or SGA and becomes entitled to benefits again within the next
      5 years, he or she may not have to serve the 5-month waiting period again before
      receiving benefits.7

•     Unincurred Business Expenses: SSA excludes from self-employed net earnings
      the value of any self-employment business support provided to a disabled person at
      no cost. 8

•     Unsuccessful Work Attempt: An unsuccessful work attempt is a disabled
      individual’s effort to do substantial work that either stopped or fell below the SGA
      limit in 6 months or less because of the individual’s disabling condition or removal of
      special conditions related to the disability. SSA does not consider earnings during
      an unsuccessful work attempt to be SGA. 9

SSI Work Incentives

•     Continuation of Medicaid Eligibility: Medicaid is a State-administered health
      insurance program for people with low income and resources. Most SSI disability
      recipients are eligible for Medicaid, which is administered by the States. 10 With the
      passage of the Continuation of Medicaid Eligibility provision, when a recipient’s SSI
      payments stop because of earnings, his or her Medicaid coverage may continue if
      he or she cannot afford similar medical care and depends on Medicaid to work. 11




5
    The Act § 226(b)(2), 42 U.S.C. § 426(b)(2).
6
  The Act § 221(m)(1)(A), 42 U.S.C. § 421(m)(1)(A). The Agency extended this protection to individuals
receiving both DI and SSI benefits. 20 CFR § 404.1590(j). A medical CDR is a review of a beneficiary’s
disabling condition to determine whether he or she continues to be disabled.
7
    The Act § 223(a)(1)(E), 42 U.S.C. § 423(a)(1)(E).
8
    20 C.F.R. §§ 404.1575(c) and 416.975(c).
9
    20 C.F.R. § 404.1574(c).
10
     The Act § 1843 et seq., 42 U.S.C. § 1395v et seq.
11
     The Act § 1619(b), 42 U.S.C. § 1382h(b).


SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                         D-2
•     Earned Income Exclusion: SSA does not count $65 of a recipient’s monthly
      earned income plus one-half of the remaining earnings. 12

•     Student Earned Income Exclusion: For a recipient under age 22 who is regularly
      attending school, SSA excludes up to $1,640 of earned income per month. The
      maximum annual exclusion is $6,600. 13

•     Work Expenses of the Blind: For a blind recipient who works, SSA may exclude
      any expense from his or her earned income that was attributable to earning that
      income. Some examples include income taxes, meals consumed during work hours,
      or transportation to and from work. 14

•     Plan for Achieving Self-Support: SSA excludes a recipient’s income and
      resources needed to obtain a specific job, vocational training, or start a business.15

•     Property Essential to Self-Support: SSA excludes as a resource any property
      that is essential for a recipient’s self-support, such as property used in a trade or
      business. 16

•     Reinstating Eligibility Without a New Application: A beneficiary does not need to
      file a new application to reinstate SSI payments or Medicaid coverage if he or she
      has been ineligible for SSI for 12 months or less.

DI and SSI Work Incentives

•     Ticket to Work Program: This voluntary program assists disabled beneficiaries in
      obtaining free employment services, vocational rehabilitation services, and other
      support services needed to get or keep a job. It also protects beneficiaries from
      receiving a medical CDR while participating in the program. 17

• Expedited Reinstatement of Benefits: Up to 5 years after a disabled individual
  stops receiving benefits because of work, he or she may request benefits again
  without filing a new application. 18


12
     The Act § 1612(b)(4), 42 U.S.C. § 1382a(b)(4), 20 C.F.R. § 416.1112(c).
13
     The Act § 1612(b)(1), 42 U.S.C. § 1382a(b)(1). See also SSA, POMS, TC 17001.020.
14
     The Act § 1612(b)(4)(A), 42 U.S.C. § 1382a(b)(4)(A).
15
     The Act §§ 1612(b)(4) and 1613(a)(4), 42 U.S.C. §§ 1382a(b)(4) and 1382b(a)(4).
16
     The Act § 1613(a)(3), 42 U.S.C. § 1382b(a)(3).
17
     The Act § 1148 et seq., 42 U.S.C. § 1320b-19 et seq.
18
     The Act §§ 223(i)(1) and 1631(p)(1), 42 U.S.C. §§ 423(i)(1) and 1383(p)(1).


SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                   D-3
•     Impairment Related Work Expenses: SSA excludes from earnings the cost of
      certain impairment-related items or services that a disabled person needs to work.
      Some examples include medical devices and prostheses. 19

•     Continued Payments under a Vocational Rehabilitation or Similar Program:
      Beneficiaries who medically recover while receiving vocational rehabilitation or other
      support services that will likely lead to becoming self-supported may continue to
      receive benefits.20

•     Subsidies and Special Conditions: Subsidies and special conditions refer to
      support received on the job, such as close supervision. If this support results in the
      beneficiary receiving more earnings than his or her services were worth, SSA will not
      count these additional earnings. 21




19
  The Act §§ 223(d)(4)(A) and 1612(b)(4)(B), 42 U.S.C. §§ 423(d)(4)(A) and 1382a(b)(4)(B);
20 C.F.R. §§ 404.1576 and 416.976.
20
     The Act §§ 225(b) and 1631(a)(6), 42 U.S.C. §§ 425(b) and 1383(a)(6).
21
     SSA, POMS, DI 00115.065 A.3.


SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                  D-4
                                                                                  Appendix E

How Work Affects Disability Benefits
DISABILITY INSURANCE BENEFICIARIES

Trial Work Period

Disability Insurance (DI) beneficiaries are granted trial work periods during which they
may test their ability to work while still receiving benefits. 1 If the Social Security
Administration (SSA) determines a beneficiary continues to be disabled after the trial
work period ends, benefits can continue to be paid during a reentitlement period. 2
During this period, SSA will not pay benefits for any month in which the beneficiary
engages in substantial gainful activity (SGA) but will pay benefits for any month in which
the beneficiary does not engage in SGA. If the beneficiary engages in SGA at any time
after the extended period of eligibility, SSA will find that the individual is no longer
disabled.

Detecting and Evaluating Unreported Earnings

Although disabled beneficiaries are required to report work activity, 3 individuals do not
always do so. Therefore, SSA uses its Continuing Disability Review Enforcement
Operation to compare earnings reported on the Agency’s Master Earnings File (MEF) to
the benefit rolls.4 This Enforcement Operation identifies potentially unevaluated
substantial earnings that may affect benefit entitlement and alerts SSA to review the
earnings. SSA must perform a work-related continuing disability review (CDR) when
earnings indicate the beneficiary has returned to work at the SGA level. 5 In 2004, the
Agency implemented an automated system called eWork to assist in controlling and
processing work-related issues and CDRs.




1
  SSA, POMS, DI 13010.035. Generally, beneficiaries are granted 9 trial work months (which do not need
to be consecutive) during a rolling 60-month period. During the trial work months, beneficiaries can work
SGA and still receive a benefit.

2
  SSA, POMS, DI 13010.210. The extended period of eligibility begins with the month immediately
following the completion of the trial work period and lasts 36 consecutive months.
3
    20 C.F.R. § 404.1588.
4
    The MEF is a repository of earnings information maintained by SSA.
5
 20 C.F.R. § 404.1590(b)(5). Because earnings posted to an individual’s earnings record may include
amounts that are not related to current work (for example, bonuses, termination pay, and sick pay), SSA
must evaluate the earnings to determine whether they represent earnings from SGA performed after
entitlement to disability benefits began.


SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                          E-1
SUPPLEMENTAL SECURITY INCOME RECIPIENTS

Detecting and Evaluating Unreported Earnings

SSA relies heavily on recipient self-disclosure of all financial resources, as well as
computer matching with other Federal and State agencies, to ensure payment
accuracy. According to SSA, many Supplemental Security Income (SSI) overpayments
result from recipients’ failure to report changes in income (such as earnings). 6

Redeterminations

The SSI program requires that individuals’ income, resources and living arrangements
be assessed each month to determine eligibility and payment amounts. Therefore, SSA
conducts redeterminations 7 and limited issue reviews 8 to ensure recipients remain
eligible for SSI payments. Scheduled redeterminations are selected annually or once
every 6 years, depending on the likelihood of payment error. Unscheduled
redeterminations and limited issue reviews are also completed when SSI recipients
report—or SSA discovers—certain changes in circumstances that could affect
continuing SSI payment amounts (for example, earnings discrepancies identified
through computer matches). 9 According to SSA, redeterminations are the Agency’s
most powerful tools in identifying and preventing SSI overpayments.10

Modernized Supplemental Security Income Claims System

SSA’s Modernized Supplemental Security Income Claims System (MSSICS) is the
primary data collection and processing system for the SSI program. SSA uses the
system to process and document SSI events. Use of the system maintains a
permanent and accessible record of a claimant’s SSI initial application and any
subsequent transactions. For example, when a field office employee verifies the
earnings of an SSI recipient, the earnings are recorded in MSSICS. For the earnings to
be used in the SSI payment calculations, the employee must transmit the information
from MSSICS to the SSR.



6
    SSA Annual Report—Executive Order 13520, Reducing Improper Payments, May 18, 2010.
7
  Redeterminations are periodic reviews of the non-medical factors of SSI eligibility (20 C.F.R. § 416.204).
SSA’s policy requires field office employees to resolve discrepancies that may exist between earnings on
the MEF and the SSR during redeterminations (SSA, POMS SI 02305.071).
8
  Limited issue reviews are redeterminations that are limited in scope and do not require a full review of
eligibility (for example, when a discrepancy is identified by a computer match). Once the discrepancy is
resolved, the limited issue is cleared.
9
    SSA, Annual Report of the Supplemental Security Income Program, May 2003, page 82.
10
  SSA, Performance Plan for Fiscal Year 2004 and Revised Final Performance Plan for Fiscal
Year 2003, page 38.


SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                              E-2
Computer Data Matches

SSA conducts several computer matches with Federal and State agencies to detect and
verify unreported (or underreported) earnings. For example, in 1998, SSA began
running quarterly matches against wage data maintained by the Office of Child Support
Enforcement’s National Directory of New Hires database. In addition, SSA compares
earnings recorded on its MEF to the earnings used to calculate SSI payments as shown
on the SSR. When significant discrepancies are found from either of these matches,
diaries are established to alert Field Office employees to the need for a review based on
the match. 11




11
  SSA’s diary alerts result when matches identify earnings discrepancies of at least $1,000 per year
(or $250 per quarter).


SSA’s Disability Process for Individuals Who Return to Work (A-01-11-21043)                            E-3
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
